HHS/OIG-Audit--"Audit of Administrative Costs Claimed Under Parts A&B of the Health Insurance for the Aged and Disable Program - AdminaStar Federal, Indianapolis, Indiana, (A-05-98-00042)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Administrative Costs Claimed Under Parts A&B of the Health
Insurance for the Aged and Disabled Program - AdminaStar Federal, Indianapolis,
Indiana," (A-05-98-00042)
September 7, 1999
Complete Text of Report is available in PDF format
(1.52 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that AdminaStar (a Medicare contractor)
overstated Medicare administrative costs by $3,111,728 for Fiscal Years 1996
and 1997. The overstated administrative costs consisted of ; overstated pension
costs, overstated return on investment costs, excessive executive salary increases,
improper deferred compensation and post-retirement health benefit claims, and
overstated cost allocations. We recommended a financial adjustment for $3,111,728.
The AdminaStar concurred with recommended adjustments totaling $2,449,320.